<html>
<title> - HOW ILLEGAL IMMIGRATION IMPACTS CONSTITUENCIES: PERSPECTIVES FROM MEMBERS OF CONGRESS (PART II)</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
   HOW ILLEGAL IMMIGRATION IMPACTS CONSTITUENCIES: PERSPECTIVES FROM 
                     MEMBERS OF CONGRESS (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2005

                               __________

                           Serial No. 109-73

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-609                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                         Allison Beach, Counsel

                 Luke Bellocchi, Full Committee Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           NOVEMBER 17, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     2

                               WITNESSES

The Honorable Jack Kingston, a Representative in Congress from 
  the State of Georgia
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
The Honorable Marsha Blackburn, a Representative in Congress from 
  the State of Tennessee
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
The Honorable John Carter, a Representative in Congress from the 
  State of Texas
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
The Honorable John Lewis, a Representative in Congress from the 
  State of Georgia
  Oral Testimony.................................................    13

                                APPENDIX
               Material Submitted for the Hearing Record

Houston Chronicle article entitled ``8 People Accused of 
  Smuggling Girls for Prostitution,'' submitted by the Honorable 
  Sheila Jackson Lee.............................................    32


   HOW ILLEGAL IMMIGRATION IMPACTS CONSTITUENCIES: PERSPECTIVES FROM 
                     MEMBERS OF CONGRESS (PART II)

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2005

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:43 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable John N. 
Hostettler (Chairman of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    This hearing is the next in a series of hearings concerning 
the impact of illegal immigration on local constituencies. And, 
as I mentioned last week, who better to explain what is going 
on around the country than Members of Congress from impacted 
areas.
    Last week, we had Members from Texas, New Mexico, and 
Illinois explain the situation in their district. Much of their 
written testimony explained the high rates of crime in their 
district, and the detrimental impact on American employment.
    Mr. Bonilla, representing 700 miles of the Texas Border 
Region, testified that his district has been under siege from 
an invasion by gangs, drug traffickers, and illegal alien 
traffic.
    In his testimony, Mr. Bonilla said that small law 
enforcement offices in the border communities are overwhelmed 
by the onslaught of traffic.
    Mr. Pearce of New Mexico testified that there have been 
special interest aliens caught in his district, individuals 
from Afghanistan, two from Indonesia, nine from Iran, and one 
from Syria. And this is only over the past 2 years.
    He testified that local enforcement in his district use a 
full quarter of their budget while helping the Border Patrol.
    Today, we have three Members whose districts do not border 
Mexico. We have our colleagues from Georgia and Tennessee, and 
one Member from Texas.
    As we discussed last week, Texas, like other border States 
has been overrun by illegal aliens.
    Unemployment and crime are high in the border areas, as 
indicated by the charts to my left and to my right.
    And there is an inverse relationship in these areas between 
Border Patrol apprehensions and property and violent crimes.
    But once illegal alien traffic runs through Texas, these 
illegal aliens settle throughout the country in areas that 
might have illegal employment ready for them.
    This is perhaps because political conditions allow easy 
passage, illegal employment, and settlement for this illegal 
population.
    Our Member witnesses can explain whether Georgia and 
Tennessee see such conditions. As you can see from the chart on 
my right, illegal alien populations have sprouted up in many 
non-traditional settlement areas of the country. Georgia and 
Tennessee are such areas.
    As I mentioned last week, cities and towns around the 
country are negatively impacted by the heavy toll on 
infrastructure, the costs of emergency and non-emergency health 
care, primary and secondary education, and, of course, the loss 
of jobs for Americans.
    In addition, society is gravely burdened with additional 
crime, high populations, national security dangers, and damage 
to the environment.
    I think the Members of Congress can agree on one thing on 
this issue: The illegal alien situation must be brought under 
control.
    With that, let me allow the witness Members to discuss the 
situation in their own districts, since they know local 
conditions, and, from that, perhaps we can fashion some 
solutions down the road.
    I turn now to Members of the Subcommittee for opening 
statements, if any Members have opening statements.
    The Chair recognizes the gentleman from Texas for 5 
minutes, Mr. Smith.
    Mr. Smith. Well, Mr. Chairman, I don't have an opening 
statement. I just wanted to welcome my colleague from Texas, 
Judge Carter, who happens to be both a friend and a colleague, 
as well as a Member of Congress who represents an adjacent 
district. And Judge Carter knows as well as anybody what the 
intricacies of immigration are and the laws that apply to 
immigration, having practiced law and also served as a judge.
    So I just wanted to offer special thanks for his attendance 
and his expertise today.
    Mr. Hostettler. I thank the gentleman. The Chair recognizes 
the gentlelady from Texas, the Ranking Member, Ms. Jackson Lee, 
for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and let 
me thank the witnesses and welcome as well the distinguished 
Members who are here and certainly to acknowledge Mr. Lewis, 
who will be introduced by the Chairman, who brings his own 
length and breadth of the American landscape as it relates to 
the needs of the American people.
    And we appreciate very much my friend and colleague from 
Texas, Mr. Carter, being here, and Mr. Kingston and we know 
that our fellow friend, Congressman Blackburn, we'll certainly 
appreciate her commitment.
    This is the second in a series of four hearings on how 
illegal immigration impacts constituencies. And I might say, 
Mr. Chairman, as we have worked together, that this certainly 
seems to be a number of hearings on one topic, a single 
subject.
    We already know that illegal immigration requires urgent 
attention.
    We know that, for instance, the Governors of Arizona, New 
Mexico, and New Mexico have declared a state of national 
emergency on account of the absence of border security along 
the border, between Mexico and the United States.
    My preference would have been to devote that time to 
comprehensive or this time that we're spending to comprehensive 
immigration reform. We do welcome the Members of Congress in 
sharing with us how immigration has impacted their areas.
    We, of course, are focusing on illegal immigration, but let 
me remind my friends that we are a Nation of immigrants, as we 
are a Nation of laws.
    Let me also remind my friends that if we look at the 
landscape, the economic landscape, of both this country and its 
surrounding neighbors, in many instances, those who travel 
treacherous roads, subjecting themselves to violence, are 
coming for economic opportunity.
    I'm reminded of that journey, for the reason that in 
studying the history of Native Americans, I understand the 
distinctive plight that many of them face.
    In studying the history of African Americans, I do 
understand that our journey started first in the bottom of the 
belly of a slave boat, and we now have come to recognize that 
as we struggle for the continued respect here in this country 
that we must all work together to improve our collective lives.
    We cannot address illegal immigration effectively by 
placing our emphasis on why it is harmful to our society. We 
must look for solutions.
    We have to concentrate on finding a solution. The solution 
cannot be limited to implementing additional enforcement 
measures only. Some persons have taken a position that the 
undocumented immigrants in our country should be deported in 
totality.
    That is impossible. All 8 to 14 million undocumented 
immigrants are entitled to removal proceedings before an 
immigration judge, and they can appeal adverse decisions to the 
Board of Immigration Appeals. In fact, we heard testimony just 
a few days ago that if we attempted to deport all of those who 
are here, it will cost some $42 billion to begin with, and we 
would not be finished with those who would be in status to be 
deported.
    And so, we know that the appealing of adverse decisions to 
the Board of Immigration Appeals, which does well when it 
adjudicates 3,000 appeals in a month, would almost be 
impossible.
    These constraints limit removals to 36,000 a year unless 
people leave voluntarily, and if you add the math, it would 
take centuries to deport 8 to 14 million.
    Others would like to eliminate employment opportunities, 
which they view as the magnet that keeps the immigrants in the 
United States. The act of 1986 made it unlawful for employers 
who knowingly hire or employ aliens who are not authorized to 
work in the United States.
    That approach has not yet worked, and IRCA has been in 
effect now for almost 20 years.
    In fact, last year, the Administration only issued three 
notices of intention to fine for hiring unauthorized foreign 
employees. Mr. Chairman, you might find some collegiality in 
that unfortunate distinction that we've not been able to 
enforce employer sanctions.
    I think the reason is, of course, that many of our 
industries depend upon that kind of labor. But we must answer 
to the American people, find a way to protect American jobs, 
insist that Americans have jobs, collaborate together when we 
can, and make sure that our employers follow the law. But there 
are industries that are totally dependent.
    And so we must track making sure that in those industries, 
Americans have opportunities as they desire, but that those 
individuals who are here can have earned access to 
legalization.
    Frankly, a guest worker program is simply that, inviting 
guests who will never return. Earned access allows individuals 
to have a review as to whether or not they will perform 
community service. If there's no criminal background and that 
they are able to get in a line separate from those who are in 
the legal line and be documented so that we know who's in this 
country.
    My ``Save America Comprehensive Immigration Reform Act of 
2092'' would address all of the major problems in our 
immigration system.
    For instance, it would address the problem of having 8 to 
14 million people living in the shadows of our society by 
providing access to legalization for three different groups of 
people who made their homes in the country and have lived here 
for many years.
    The first legalization program will be undocumented 
immigrants. The second would be legalization for undocumented 
children, and the third would be to change the registry 
program.
    I hope that as we proceed with this hearing, we'll do 
several things: one, gain the information that this Committee 
would like, but I hope we find a way to cure the rising problem 
of fraudulent documents. I hope we'll find a way to have a 
common ground and bipartisan approach to comprehensive 
immigration reform, and I hope we'll come away recognizing that 
we are, in fact, a Nation of immigrants and laws.
    This Nation was built upon a successful integration of 
immigration or immigrants into our society. Some of us came in 
a more untoward manner, but it is important that we work 
together to find a solution, for the American people are 
counting on us. And I yield back, Mr. Chairman.
    Mr. Hostettler. I thank the gentlelady.
    The Chair will now introduce distinguished Members of our 
witness panel.
    First of all, Mr. Jack Kingston represents Georgia's First 
District on the South Atlantic Coast, and he currently sits on 
the House Appropriations Committee.
    He was first elected in 1992 and prior to that served in 
the State Legislature for 8 years. He was a strong supporter of 
the Real ID Act and other legislation to strengthen enforcement 
of immigration laws.
    Mr. Kingston received his Bachelor of Science degree at the 
University of Georgia.
    Mrs. Marsha Blackburn, who will be joining us shortly, 
represents the 7th District of Tennessee, which includes 
suburbs of both Memphis and Nashville.
    A small business owner for 25 years, Mrs. Blackburn served 
in the Governor's Cabinet, followed by the Tennessee Senate for 
4 years, where she spearheaded the effort to strengthen the 
State's driver's license and credentialing regulations to ban 
the issuance of State ID's to illegal aliens.
    Mrs. Blackburn was previously a Member of this Subcommittee 
and has been a vocal supporter of the Real ID Act.
    Mrs. Blackburn is a graduate of Mississippi State 
University.
    Congressman John Carter was first elected in 2002 to 
represent the 31st District of Texas. He sits on the House 
Appropriations Committee, and is a Member of the Subcommittees 
on Military Quality of Life and Veterans Affairs, Homeland 
Security, and Foreign Operations. Formerly, he was a Member of 
this Judiciary Committee, as well.
    Before coming to Capitol Hill, he was for many years a 
District Judge in Texas and also served as a municipal judge. 
Congressman Carter graduated from the University of Texas Law 
School and holds a degree in History from Texas Tech 
University.
    Congressman John Lewis has represented the 5th District of 
Georgia since being elected to Congress in 1986. Prior to his 
election, he was elected to the Atlanta City Council and 
appointed by President Jimmy Carter to direct the Federal 
Volunteer Agency, ACTION.
    He is recognized as a long-time and dedicated civil rights 
advocate, who participated actively in the civil rights 
movement and the Freedom Rides.
    In 1963, he was named one of the big six leaders of the 
civil rights movement.
    Congressman Lewis holds a Bachelor of Arts degree in 
Religion and Philosophy from Fisk University, and is a graduate 
of the American Baptist Theological Seminary in Nashville, 
Tennessee.
    Lady and gentlemen, I appreciate your willingness to 
testify today.
    As you are all familiar with the light system, we will 
receive testimony. Without objection, your full written 
statement will be made a part of the record, and we appreciate 
your being here.
    Congressman Kingston, you are recognized for 5 minutes for 
an opening statement.

 TESTIMONY OF THE HONORABLE JACK KINGSTON, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Kingston. And, Ms. Jackson Lee and members of the 
panel, it's great to be with you.
    In Georgia, the year 2000, there were approximately 228,000 
illegal aliens. In 1996, the number was 32,000--if you think 
about it in 4 years to have almost an increase of 200,000 
illegal aliens. And, of course, as usual, since you're dealing 
with undocumented folks, you can't keep track of any of these 
numbers, so it could be much worse.
    We seem to have two different types--those, about 100,000--
who come in each year as seasonal workers. They tend to be more 
in the agriculture areas in the South, picking Vidalia onions 
or cotton or whatever. And they're more migratory. Once they're 
in the State, they don't really stay. The second type would be 
people who stay longer. They're more in the northern part of 
Georgia, following the textile mills and the poultry factories, 
and now, in the hotel-motel resort industries as well. They 
tend to stay.
    The impact of these groups--huge budget increases to local 
municipalities, from schools to hospitals struggling with the 
costs. Farm workers in Georgia don't have health care usually 
as the trend, and, according to the Department of Community 
Health Services in Georgia, in 2004 alone, taxpayers paid $58 
million for emergency health care for illegal aliens--$58 
million. And, you know, most of that again is for the farm 
care.
    Another problem in the schools, just to give you a 
practical vignette, it's not unusual to have a child who 
doesn't speak English with a teacher who doesn't speak their 
native tongue. For example, the teacher doesn't speak Spanish. 
The child does. But the child doesn't speak English, and, yet, 
they have to be in the classroom.
    And it hurts that child, plus it hurts the other 29 
students because they don't have an opportunity to move forward 
because the teacher has to give that child extra attention, to 
try to work through it; yet, legally, of course, the doors are 
open to these illegals.
    In 2002, it was estimated that Georgia had to spend $231 
million educating illegal aliens. And I am trying to jump 
around a little bit for the time of the Committee, but the H-2A 
program, farmers somewhat interested in that, particularly the 
Vidalia onion farmers, but they have to pay what's called the 
adverse effect wage rate.
    And the way that works is it's not prevailing wage. When 
you go in and you say, okay, all the peach workers get paid $10 
an hour. On an average, that's what we're going to pay.
    The adverse effect wage rate says anybody in agriculture is 
all lumped together. So you get a veterinarian who's making 
$100,000 a year, and then a tractor mechanic who might be 
making $8 an hour, and you put the mix in there. And then you 
have to pay what might become $20 an hour to a worker to pick 
onions, and that's more than the job is worth.
    And so our farmers until the H-2A program, that's one of 
the major problems with it, and we've got to change that part, 
but unfortunately it seems like all their competitors are 
hiring illegal aliens through contract workers; and, therefore, 
that's what they're going to do.
    And they have a problem that if they want to do a 
nationality check, then they have to check everybody, because 
if they just check one or two workers, that's discrimination. 
So they have to check all 100.
    I think that should be looked at, but another thing is 
people can go to a gun show on a Saturday afternoon and get an 
instant background check. Why can't an employer use the same 
technology to find out if Joe Blow is, in fact, an American 
citizen or not? I believe that technology should be available 
to them.
    Let's see. Here's another statistic that comes from--Mr. 
Deal from Georgia has introduced a bill that says just because 
you're born in America, why do you have to be an American 
citizen. And I think, you know, years ago, ideologically, we 
all feel like, hey, if you're born in America, you become an 
American.
    But times have changed. And most countries have changed 
that law who had it or they never did have it. But the cost of 
that may be as high as $100 billion a year to provide for 
children who come in whose mothers are illegal aliens, but they 
have the baby born here.
    And, Mr. Speaker, there are some other things--Mr. 
Chairman, but I'll look forward to your questions, and again 
thank you for taking a look at this.
    I think it is something, though, that we can work through 
on a balanced basis, on a bipartisan basis, and address with 
common sense.
    And thank you and I remember that the distinguished 
gentleman from Texas worked on the H-2A program when I was 
first here, 12 years ago trying to straighten it out. So we 
know the task in front of us is very big, and that was during 
Mr. Inglis' first tour of duty up here.
    So thank you very much.
    [The prepared statement of Mr. Kingston follows:]
Prepared Statement of the Honorable Jack Kingston, a Representative in 
                   Congress from the State of Georgia

    Mr. Chairman, thank you for the opportunity to speak before this 
committee. It is estimated that in the year 2000 there were 228,000 
illegal aliens in the State of Georgia. That was a seven-fold increase 
from the INS estimate of 32,000 illegal aliens as of October 1996. The 
number of illegal aliens has increased 613 percent since 1996 and 777 
percent since 1992, giving Georgia the seventh largest illegal alien 
population in the country.
    Georgia has two distinct experiences with illegal immigration. In 
the south, illegal aliens tend to be seasonal, migrant workers. This is 
especially true in the agricultural sector. Northern Georgia, however, 
has more permanent illegal aliens, especially in the textile and 
poultry industries. It is believed many of the seasonal workers who 
start in the south migrate north where they become more permanently 
settled.
    The nature of these two trends, obviously, has different impacts on 
society. The burden of a burgeoning illegal populace has been very 
significant to local and state governments. Everything from schools to 
hospitals are struggling to cope with the huge costs being placed on 
them.
    Most farm workers in Georgia do not have health insurance, although 
U.S. born children of illegal immigrants are eligible for Medicaid. 
According the state Department of Community Health in 2004 alone 
Georgia taxpayers spent $58.4 million to provide emergency health care 
to undocumented immigrants. The farm workers seeking emergency care 
live in rural communities, communities whose health care systems are 
already under financial strain.
    Georgia's education system is also experiencing problems related to 
mass immigration of illegal aliens. Classrooms are crowded with 
students who don't speak English being taught by teachers who don't 
speak Spanish. Everyone suffers in the classroom, the teacher, the 
students born to illegal aliens, and the children of local taxpayers 
who are held back. In 2002, it is estimated that Georgia spent $231 
million educating illegal aliens. The Georgia Department of Education, 
relying on a 1982 U.S. Supreme Court ruling, is not allowed to ask a 
person's residency or visa status when a child is being enrolled. So 
calculating the exact cost of educating the children of illegal aliens 
is difficult.
    The district I represent consist of 29 counties in Southeast 
Georgia. Most of these counties are in rural areas with local economies 
that are heavily dependent on agriculture production. Georgia sees more 
than 100,000 seasonal farm workers each year, most of these seasonal 
workers are in South Georgia picking produce. The first district also 
includes the entire Georgia coast where tourism and service industries 
are also critical to my constituents. Both of these industries are 
reliant on immigrant labor. Unfortunately, many of these immigrants 
whose labor is so important to my district are here illegally.
    Each time I meet with farmers in my district agriculture labor 
reform is one of their top priorities. The obvious starting point in 
addressing ag labor issues is to modify the current H2A program so that 
farmers can afford to use it. Unfortunately, H2A requires that the 
arcane Adverse Effect Wage Rate be used. This rate, unlike the 
prevailing wage rate, is not based upon a market survey of the wages 
paid in a specific occupation in the area of intended employment. It is 
a regulatory wage rate required by the Department of Labor that relies 
on statewide averages of dissimilar agriculture jobs. Use of the AEWR 
has resulted in inflated wage rates that farmers cannot afford. It is a 
frequent complaint that many farmers in my district would like to 
follow the law and participate in H2A but they cannot stay competitive 
with the current regulations. So the choice they are left with is, 
participate in H2A and lose the farm or hire illegal labor and continue 
to operate and support their families. This is a difficult position to 
be in and unfortunately it is all too common. The wage rate and the 
bureaucratic red tape associated with our current H2A program encourage 
illegal immigration in my district.
    As some of you may remember at the start of the $90 million Vidalia 
onion harvest in my district in 1998, the INS launched operation 
``Southern Denial'' and arrested 27 illegal alien workers in 
Glennville, GA. The arrests led many of the 4,000-5,000 estimated 
migrant workers needed for the onion harvest to abandon the harvest out 
of fear of being deported. As a result onions were left rotting in the 
field and farmers in my district suffered greatly. A compromise was 
finally worked out and the farmers agreed to participate in the H2A 
program the next year. However, as I mentioned earlier this program is 
so outdated and burdensome that those who want to follow the law cannot 
afford to follow the law.
    Although the numbers cannot be confirmed it is estimated that over 
300,000 illegal alien women arrive pregnant each year and their 
children immediately qualify for citizenship. This means that American 
taxpayers are footing the bill for food, housing, medical expenses, and 
education for them up to age 18 in addition to paying for their mother, 
who is still considered an illegal alien. The average annual cost per 
child k-12 is $7,161.00 and exceeds $109 billion annually for anchor 
babies. Over 300,000 illegal alien mothers and their children are 
receiving hard earned taxpayer dollars each year simply for having a 
child across their border.
    I strongly believe any immigration reform proposal to be considered 
this fall must contain language which addresses birthright citizenship, 
such as that proposed in H.R. 698, the ``Citizenship Reform Act.'' The 
cost of caring for these children is extremely high. For labor and 
delivery alone, excluding c-section deliveries and any pre- or post-
natal care, the cost is between $1,500 and $1,800 per child in my home 
state of Georgia. Under current law the government is often left no 
choice but to cover these costs. Despite the legal status of the baby's 
parents, the baby is entitled to all benefits that U.S. citizenship 
entails, including federal welfare benefits. One quickly comes to 
realize incredibly high costs this places on our social infrastructure. 
This is an issue which is quickly coming to affect most Congressional 
districts. A failure to address this issue in an immigration reform 
proposal would be a mistake.
    Mr. Chairman, thank you again for the opportunity to share the 
problems that Georgia is experiencing with illegal immigration with 
your committee. I look forward to working with you towards immigration 
reform in the coming months as this issue is definitely a priority for 
my constituents in the first district of Georgia.

    Mr. Hostettler. Thank you, Congressman Kingston.
    Congresswoman Blackburn, welcome back.

 TESTIMONY OF THE HONORABLE MARSHA BLACKBURN, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF TENNESSEE

    Ms. Blackburn. Thank you, Mr. Chairman. I have bronchitis, 
so I will be a little soft in the voice today, but I thank you, 
Ms. Jackson Lee, and the Committee, and thank you for holding 
the hearing and for inviting me to testify on the impact of 
illegal immigration in my home State of Tennessee.
    In 1990, only 11,000 illegal immigrants resided in 
Tennessee. Today, there are at least 46,000 in the State. Many 
of these immigrants now hold Tennessee driver's licenses. In 
2001, Tennessee decided to issue driver's licenses without 
requiring an applicant to produce a Social Security number or 
prove their legal residency in our country.
    The result of this policy was a huge increase in demand. 
While in the State Senate, I worked to change this ill-
conceived and dangerous policy with proposed legislation 
requiring individuals applying for a Tennessee driver's license 
to actually prove if they were, in fact, who they claimed to 
be, and, if they were legal residents.
    Today, Tennessee mandates that immigrants only receive a 
proper driver's license if they present a Social Security 
number or proper immigration papers. If they do not, they 
receive a driving certificate. Yet, this has not prevented 
illegal immigrants from obtaining these driving certificates.
    In July 2005, two illegal immigrants were arrested as they 
attempted to get driver's licenses in Knoxville. They paid a 
New Jersey couple $950 to travel to Tennessee and obtain the 
necessary documents and paperwork needed to get the driving 
certificate.
    The couple had been doing this for several months, and had 
helped at least 60 illegal immigrants procure these Tennessee 
driver's licenses. The two immigrants were released 3 weeks 
ago, and have 30 days to find transportation and voluntarily 
depart from this country.
    Another problem facing both Tennessee and other States is 
the infiltration of hundreds of illegal immigrants using 
fraudulent documents to work at nuclear and chemical plants and 
military bases for contractors.
    In June 2005, the Department of Energy's Inspector General 
found 16 illegal immigrants working at the Oak Ridge, Tennessee 
Y12 Nuclear Weapons Plant with fraudulent documentation. They 
had access to official use only documents, and investigators 
stated that this access represented a potentially serious 
access control and security problem. This is just one example 
of a growing trend of the U.S. Immigration and Customs 
Enforcement, or ICE, Department allowing contractors to self-
certify the citizenship of their employees.
    Worksite enforcement is a low priority for ICE, as they 
have continually devoted less and less resources to the area, 
and often lowering the amount of fines in negotiations with 
employers.
    GAO has stated that this policy undermines effective 
enforcement and allows company owners to view fines simply as 
the cost of doing business. GAO also stated that U.S. employers 
will continue to hire illegal immigrants because of these lax 
enforcement efforts and as the proliferation of fake documents 
increases.
    I believe it's necessary to make Federal contractors who 
often oversee work at these critical infrastructure sites 
verify the status of their employees. Contractors must not be 
allowed to negotiate the fines down and ignore the law.
    I've introduced two bills to address these problems. H.R. 
2049, the ``Federal Contractor Security Act,'' would ensure 
that Federal contractors are not using taxpayer dollars to pay 
the wages and salaries of illegal immigrants. They would be 
required free of charge to use the employee verification 
program to screen out ineligible workers by verifying name, 
addresses, Social Security numbers of newly hired employees 
against the records of the Department of Homeland Security and 
the Social Security Administration.
    Another bill, H.R. 3262, the ``Employee Verification 
Accountability Act,'' would not allow ICE to negotiate the 
fines down, but instead would level a standard fine of $10,000 
if the employer knowingly hires an ineligible worker.
    Mr. Chairman, the driver's license problem is in the 
process of beginning to be addressed through the enactment of 
the Real ID Act. The Federal Government must begin to 
prioritize enforcing current immigration laws. If we do not 
solve this problem, I believe it's only a matter of time before 
our national security is further compromised.
    That concludes my statement. I thank you for welcoming me 
back, and I look forward to your questions.
    [The prepared statement of Ms. Blackburn follows:]

Prepared Statement of the Honorable Marsha Blackburn, a Representative 
                in Congress from the State of Tennessee

    Mr. Chairman, I want to thank you for holding these hearings and 
for inviting me to testify on the impact of illegal immigration to my 
home state of Tennessee.
    In 1990, only 11,000 illegal immigrants resided in Tennessee, today 
there are at least 46,000 in the state. Many of these immigrants now 
hold Tennessee driver's licenses. In 2001, Tennessee decided to issue 
driver's licenses without requiring an applicant to produce a Social 
Security number or prove their legal residency in our country. The 
result of this policy was a huge increase in demand.
    While in the State Senate, I worked to change this ill-conceived 
and dangerous policy. I proposed legislation requiring individuals 
applying for a Tennessee driver's license to actually prove that they 
were in fact who they claimed to be and that they were legal residents. 
Today, Tennessee mandates that immigrants only receive a proper 
driver's licenses if they present a Social Security number or proper 
immigration papers. If they do not, they receive a driving certificate. 
Yet, this has not prevented illegal immigrants from obtaining the 
licenses.
    In July 2005, two illegal immigrants were arrested as they 
attempted to get drivers licenses in Knoxville. They paid a New Jersey 
couple $950 to travel to Tennessee and obtain the necessary documents 
and paperwork needed to get a license. The couple had been doing this 
for several months and had helped at least 60 illegal immigrants 
procure Tennessee driver's licenses. The two immigrants were released 
three weeks ago and have thirty days to find transportation and 
voluntarily depart from the country.
    Another problem facing both Tennessee and other states is the 
infiltration of hundreds of illegal immigrants using fraudulent 
documents to work at nuclear and chemical plants, and military bases 
for contractors. In June 2005, the Department of Energy's Inspector 
General found sixteen illegal immigrants working at the Oak Ridge, 
Tennessee Y-12 nuclear weapons plant with fraudulent identification. 
They had access to ``official use only'' documents, and investigators 
stated that this access represented a potentially serious access 
control and security problem.
    This is just one example of a growing trend of the U.S. Immigration 
and Customs Enforcement (ICE) department allowing contractors to self-
certify the citizenship of their employees. Worksite enforcement is a 
low priority for ICE as they have continually devoted less and less 
resources to this area and often lowering the amount of fines in 
negotiations with employers. GAO has stated that this policy undermines 
effective enforcement and allows company owners view fines simply as 
the cost of doing business. GAO also stated that U.S. employers will 
continue to hire illegal immigrants because of these lax enforcement 
efforts and as the proliferation of fake documents increases.
    I believe it is necessary to make federal contractors, who often 
oversee work at these critical infrastructure sites, verify the legal 
status of their employees to ensure security is not compromised. Also, 
contractors must not be allowed to negotiate the fines down and, 
continually ignore the law.
    I have introduced two bills to address these problems. One of my 
bills, H.R.2049, the Federal Contractors Security Act, would ensure 
that federal contractors are not using taxpayer dollars to pay the 
wages and salaries of illegal immigrants. They would be required, free 
of charge, to use the Employee Eligibility Verification Program to 
screen out ineligible workers by verifying names, addresses, and Social 
Security numbers of newly hired employees against the records of the 
Department of Homeland Security and the Social Security Administration.
    Another bill of mine, H.R.3262, the Employee Verification 
Accountability Act, would not allow ICS to negotiate the fines down, 
but instead would level a standard fine of $10,000 if the employer 
knowingly hires an ineligible worker. Together my two bills would 
greatly reduce the ability of contractors and the ICS to turn a ``blind 
eye'' towards the employment of illegal immigrants.
    Mr. Chairman, the driver's license problem is in the process of 
being solved through the enactment of the REAL ID Act. The federal 
government must begin to put more effort and resources into enforcing 
current immigration laws. If we do not solve this problem, I believe it 
is only a matter of time before our national security is further 
compromised, which could lead to another terrorist attack on our own 
soil.
    Mr. Chairman, this concludes my statement, and I am available to 
answer questions from the committee.

    Mr. Hostettler. Thank you, Congresswoman Blackburn.
    Congressman Carter.

  TESTIMONY OF THE HONORABLE JOHN CARTER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Carter. Thank you, Mr. Chairman, and thank you, Ranking 
Member Jackson Lee, for allowing me to come and testify before 
a Committee that I love, because I served on this Committee.
    I want to start--I'm not going to go over my written 
testimony other than just read you something that I think tells 
you where Texas was in the year 2000, which has substantially 
changed since that time.
    In the year 2000, one million illegal immigrants lived in 
Texas, about 5 percent of the State's population. Texans spend 
$4 billion annually educating illegal immigrant children and 
their born in the U.S.A. siblings.
    About 12 percent of Texas school children in K through 12 
are children of illegal aliens.
    Texas health care expenditures for illegal aliens are more 
than $520 million a year. The uncompensated cost of 
incarcerating illegal aliens is more than $150 million a year. 
This cost relates to Texas households of about $725 per Texas 
household. This is 2000.
    Since 2000, Mr. Chairman, there has been an open highway 
across the Texas border, pouring in at every entry point and 
every spot in between--illegal aliens not only from Mexico, but 
literally from all over the world.
    And I just want to tell you some stories that I personally 
can recount and stories that I can tell you that my neighbors 
have recounted to me.
    First let me tell you that the situation on the Texas 
border today has gotten to be where it is now a community of 
lawlessness from El Paso to Brownsville.
    Why is that? Because people have been breaking the law up 
and down that border, making border crossings for years and now 
lawlessness prevails across the Mexican border like you have--
you cannot imagine in your worst nightmare.
    I just recently joined Congressman Cuellar in Laredo, and 
visited with all of our folks that are working down in the 
Laredo District. This was within the last month.
    I brought with me a newspaper--and you probably can't see 
it from here--with a photograph of the wife of an American 
Laredo, Texas police officer--he works in the narcotics 
division--who was kidnapped and taken to Mexico, an American 
citizen.
    And because her husband would not cooperate with the 
cartels in Nuevo Laredo, she was burned alive, and her 
photograph sent back to her husband to explain why he should 
have cooperated.
    It's a horrible photograph, and I think everybody should 
realize that just shows you what kind of lawlessness prevails.
    The Mexican Government has gone into Nuevo Laredo to try to 
do something about this, and has literally had street gun 
battles. The chief of police, the newly elected chief of 
police, was killed within 8 hours of taking the oath of office 
in Nuevo Laredo, Mexico.
    That element of lawlessness is spilling across our borders 
day and night in the State of Texas.
    We viewed a film of drug dealers operating in platoon 
strength in what looked like uniforms, night vision goggles, 
armored vests, carrying AK-47s and satchels of drugs and 
weapons, marching across the Texas border.
    And the Border Patrol was filming this, but there were only 
two agents, and they weren't about to take on those 48 members 
of this group that were marching their illegal weapons and 
drugs into the State of Texas. And they don't stay in Texas. 
They're headed to every place in this Union.
    The I-35 corridor is the number one drug corridor in 
America, and drugs and illegals are pouring up and down 
Interstate 35. I can tell you that for a long time--I've been 
dealing with the situation of illegals and being in and around 
illegal aliens in my entire life time. I happen to feel like 
these are some of the most hard working and, in many cases, 
nicest people I've ever met. This is not about people. This is 
about law breakers.
    And once you start excusing lawlessness, you excuse it all 
the way, up and down the border, and that's what we're 
experiencing now.
    If we don't do something about the Texas borders, the costs 
that I read to you are going to--already have probably doubled 
in the last 4 years. And they're going to double again and 
again and again. It's an intolerable situation. It's a 
dangerous situation, and we have to do something about these 
borders.
    Talk to the ranchers. They used to watch these folks walk 
through and cause no trouble.
    Now, they break in. They steal their vehicles. They shoot 
up their houses. These are ranchers that have lived on that 
border for four generations, and had these illegals walk 
through for four generations of their family, never had any 
trouble until the last 5 years.
    And in the last 5 years, they are scared to go visit their 
ranch houses--of ranches that adjoin the Mexican border.
    Mr. Chairman, we've got a crisis situation in Texas. And if 
we--and pretending it doesn't exist is not going to solve the 
problem. It is frightening. It will really take your breath 
away, and I would hope sometime you go down there, and talk to 
the folks that's in the trenches, and let them tell you the 
real world of the Texas-Mexico border.
    Once again, I have no problem with these folks in Mexico, 
but because many of them are hardworking good folks. But this 
lawlessness situation has got to stop.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Carter follows:]

Prepared Statement of the Honorable John R. Carter, a Representative in 
                    Congress from the State of Texas

    Good afternoon, Mr. Chairman and subcommittee members. Thank you 
for giving me the opportunity to testify before this committee. Illegal 
immigration is undoubtedly the most important issue Texas currently 
faces. As millions of illegal aliens stream across the Rio Grande into 
Texas and the United States, our criminal justice, healthcare, welfare, 
and education systems (to name a few) are negatively impacted. The 
American taxpayer is picking up the bill for unauthorized immigrants 
visiting emergency rooms, schooling their children, and being 
incarcerated.
    It is estimated that in 2000, there were more than one million 
illegal immigrants living in Texas. That was about five percent of the 
state population. Texans spend more than $4 billion annually on 
education for illegal immigrant children and their U.S.-born siblings. 
About 12 percent of Texas school children in K-12 are children of 
illegal aliens. Texas' healthcare expenditures for illegal aliens are 
more than $520 million per year. And the uncompensated cost of 
incarcerating illegal aliens is more than $150 million each year. These 
costs relate to about $725 per legal household.
    Other costs to Texas and American taxpayers are those associated 
with English proficiency programs, damages and injuries caused during 
border crossings, low-income housing subsidies, and unpaid taxes. Many 
legal workers are displaced by unauthorized immigrants willing to work 
for lower wages. The United State's education system is regularly 
criticized for being inferior to those of other nations. Just think 
what we could do with the billions of dollars we are spending on 
illegal immigrants and their children--raise teachers salaries, more 
education-related programs, more school vouchers, to name a few.
    All this does not even begin to discuss the intangible costs 
associated with drug running, arms smuggling, and violence spilling 
over from Mexico border towns. The Border Patrol reports that Texas has 
the highest seizure rate of cocaine and heroine of any other state. Now 
I know our Texas law enforcement officers are the best and that is one 
reason we have the highest seizure rate, but the other reason is that 
we have more drugs flowing into this country through the Texas border 
than anywhere else. The drug business is flourishing in Mexico because 
of the illegal trade with America. The Mexican side of the border is 
fast becoming a lawless war zone where cartels and gangs rule with 
martial law. This tragic development is too close to innocent American 
citizens and the violence is beginning to spread across the border.
    I applaud the efforts of Congress to reform our immigration laws. I 
hope to see many strict policies included in this process, including 
tougher enforcement of our laws, stronger penalties to act as 
deterrents, and a comprehensive plan to plug the leak in our borders, 
including some sort of wall or fence.
    It is conservatively projected that ICE needs a total of 40,000 
beds to handle the mandatory detention needs. Typically the agency has 
an inventory 18-20,000 beds including its own facilities and those 
obtained through contracting with the private sector or state/local 
facilities. The severe shortage of detention capacity has resulted in a 
``catch and release'' situation whereby 120,000 non-Mexican illegals 
apprehended by the Border Patrol were released into the general 
population last year alone. I am aware of detention capacity that 
exists in my district and around the country and as Congress moves 
forward with reform legislation, we should ensure that ICE has the 
funding necessary to utilize existing capacity and to obtain additional 
capacity as needed to meet the detention needs.
    I am probably not telling this subcommittee anything it does not 
already know, so please let me elaborate with some specific stories 
from my district in central Texas.

    Mr. Hostettler. Thank you, Congressman Carter.
    Congressman Lewis?

  TESTIMONY OF THE HONORABLE JOHN LEWIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Lewis. Chairman Hostettler, Ranking Member Jackson Lee, 
Members of the Subcommittee, I am honored to be here, and I 
thank you for the opportunity to testify before you today on 
such an important issue.
    I commend you for examining this issue, and hope that, as a 
consequence of these hearings, we, as a Nation and as people, 
will move closer to a workable solution that serves everyone 
better, much better--a solution that preserves the very thing 
that defines us as American, our diversity, yet recognizes that 
we don't have to choose between being a Nation of immigrants or 
a Nation of laws.
    If we are deliberate in our approach, I think we can all 
reach the conclusion that we can be both.
    The United States is a Nation of immigrants. Our Nation was 
founded by immigrants to this land. Each of us in this room, 
save those of Native American heritage, can call ourselves 
immigrants or descendants of immigrants to this country.
    And every generation of Americans has been strengthened by 
the work ethics and values of those that joined the American 
society from abroad.
    Our diverse immigrant roots have shaped this Nation and 
made us what we are today, a culturally rich, diverse land with 
opportunity for all, and, as such, we are the envy of the world 
community.
    Unfortunately, our current immigration system is fraught 
with problems, problems serious enough to threaten the very 
essence of who we are. There are about 10 million undocumented 
immigrants living and working in the United States, filling 
gaps in the labor market by enduring low wages and poor working 
conditions.
    Unscrupulous employers continue to turn a blind eye to 
their undocumented status in order to take advantage of their 
willingness to work below the prevailing wage and without 
benefits.
    These workers often live in the shadow of our society, 
using false identification documents, and because they fear 
being discovered rarely report crimes committed against them, 
making them easy targets.
    Demand for low-skill labor continues to grow in the United 
States, while the number of Americans willing to work in these 
jobs continues to decline.
    This problem is made worse by the fact that our immigration 
laws are out of tune with our Nation's changing economy.
    Currently, there is no legal channel for low-skilled, yet 
essential, immigrant workers to enter the United States to meet 
our labor demand. The consequence of this is a continued flow 
of illegal workers, bringing with it a host of problems, 
including smuggling, document fraud, needless deaths, 
artificial low wages, not to mention untold violations of civil 
rights and civil liberties.
    As long as unprincipled employers are willing to hire them, 
these undocumented workers will continue to try to immigrate by 
whatever means possible, with the hope of finding a better life 
and experiencing the American dream.
    Meanwhile, millions of close family members of legal 
immigrants wait to be reunited as the applications remain in 
visas backlog for years, even for decades. That must change.
    Our immigration system is in dire need of an overhaul. The 
system we have got in place is clearly broken. It serves no one 
well, not the immigrants, not businesses, who rely on their 
labor, not our national security, and not the American people. 
And the problem is growing daily.
    No longer, no longer, Mr. Chairman, it's just an issue of 
border States. This has become a Nationwide concern.
    Even in Georgia and the rest of the mid-South, far from the 
nearest land border, the undocumented immigrant population is 
growing rapidly, including a State like North Carolina and 
other parts of the Southeast.
    Congress must act. That said, however, I caution not to 
apply this sledge hammer approach. We must be careful not to 
throw the baby out with the bath water.
    It is essential that something be done soon, but it is even 
more important that whatever we do must be done right.
    We need comprehensive reform that secures our borders, 
reunites family, and benefits the American economy. In recent 
testimony before the Senate Judiciary Committee, my friend and 
colleague, Senator Kennedy, put it this way: The past debate 
has long been polarized between those who want more enforcement 
and those who want more visas. But to repair what is broken, he 
said, we need to combine increased enforcement and increased 
legality. Better border control and better treatment of 
immigrants are not inconsistent. They are two sides of the same 
coin. I agree with what Senator Kennedy had to say.
    And I must close by saying, Mr. Chairman and Members of the 
Subcommittee, it doesn't matter whether we are African 
American, Asian American, European American, or Native 
American. It doesn't matter whether we are White, Black, or 
Brown. We are one family. We are one house. We are one people.
    It doesn't matter whether we are new immigrants or whether 
we can trace our immigrant heritage back for generations. We 
should all be able to share in the fruits of this great land. 
Maybe, just maybe, our foremothers and our forefathers came to 
this great country on different boats, but we are all in the 
same boat now.
    Thank you, Mr. Chairman.
    Mr. Hostettler. Thank you, Congressman Lewis.
    At this time, we'll turn to questions from Members of the 
Subcommittee.
    First of all, Congressman Carter, Judge Carter, you made a 
very profound point and that was when you said, and I'm going 
to paraphrase it somewhat, but once you excuse one form of 
lawlessness, then it shouldn't be surprising--and this is where 
I'll take a little liberality--it shouldn't be surprising that 
other lawlessness follows. Is that--would you agree with that?
    Mr. Carter. Oh, absolutely. And you know in our present 
theories of law enforcement, we've learned that. That's why we 
have the new theory of community patrolling, which encourages 
the cleaning up of the inner cities, because we've learned that 
if you--if people--if a community looks and acts lawless, then 
lawlessness comes into that community and expands in that 
community. We've learned that in our cities already, and we've 
had successes by going in and having people just clean up and 
join in an effort to stop lawlessness; lawlessness reduces.
    On the border, when you have an element that--a whole 
industry of people that are breaking the laws of the United 
States every single day and nothing happens to the people who 
break the laws of the United States, then the next phase is if 
they can't stop that, they're not going to be able to stop--we 
used to have small amounts of drugs coming across the border. 
Now, we have massive amounts of drugs coming across the border. 
We used to have basically no arms trade. Now, we've got a huge 
arms trade. In fact, I was talking to a lady from Houston who 
has a ranch down on the border. They have game fences, the tall 
game fences so the deer don't get out. She said nobody ever cut 
those fences. None of those--none of the illegals that went 
through ever cut those fences. Now, they're cutting them, so 
there's an easy way to find out why. You just go out--everybody 
that speaks Spanish--and talk to some of the workers that work 
on the ranches, why is this happening? Well, they can't get the 
arms boxes over the fences, so they cut the fences.
    That ought to be frightening every Member, every person in 
America, but if that's the reason they're telling those 
ranchers that those fences are getting cut is because they're 
bringing in too large of shipments to push them over a fence, 
that's a frightening thought.
    That's what I'm talking about, the element of lawlessness. 
And it's just going to get worse and worse and worse.
    Mr. Hostettler. Would you say that the initial form of 
lawlessness----
    Mr. Carter. It's the illegal immigration.
    Mr. Hostettler [continuing]. Is coming across the border in 
the first place?
    Mr. Carter. That's right. It's--once you have a culture of 
its okay to break the law, it just grows.
    And in that, we got lots of experience in law enforcement 
over, you know, centuries to know that that's true. You can 
look at our history of our country, on the East Coast even, and 
the big cities on the East Coast, and you can see that at times 
when lawlessness broke down, when it became a lawless 
community, it gets worse. That's what we've got. It's getting 
worse, and it's now they're coming up. You know we had 60,000 
OTMs, other than Mexicans, in the Laredo area. This was 
according to our people that have been caught and released--
60,000 in the last year. These are people that are from other 
than Mexico that have come; caught and released.
    Now, we don't know where those people are. We've got 
500,000 people who are gone. We have turned them loose, and we 
don't know where they are.
    They caught them, turned them loose, and we got no idea 
where they are. They haven't reported to court. They're 
somewhere--I can tell you that talking to the folks around my 
neighborhood, they're all going to Chicago. That's seems to be 
the Promised Land.
    In my part of Texas, everybody seems to be headed for 
Chicago. I don't know what's in Chicago, but they all seem to 
be. If you talk to them, oh, when I get through with this job, 
I'm going to Chicago.
    So it's going all the way from our border to Canada. People 
are headed that way.
    Mr. Hostettler. Yeah. Thank you, Judge.
    Congressman Kingston, according to the Atlanta Journal 
Constitution, Georgia State University granted four illegal 
aliens of local high schools full tuition scholarships last 
year. Do you think that the people of Georgia wanted to pay 
those tuitions, especially those who are putting their children 
through Georgia colleges?
    Mr. Kingston. No, Mr. Chairman. And as I understand it, the 
State Legislature has that as one of their top priorities that 
there is some quirk in the law that you cannot ask an applicant 
to college if they are an American citizen or a legal American 
citizen or not. There is something that they're trying to 
address.
    But really you get to where there's a rub in general and 
that is for people who have followed the law, such as my uncle, 
who was a legal Hungarian refugee, who migrated to America, 
waited in line, did not speak any English, but did all the 
things right, and what you're--the signal is, hey, you can 
break in line and the benefits are there whether you have 
followed the laws or not. And that's what the people really are 
mad about. We need a fair and balanced commonsense immigration 
policy.
    Mr. Hostettler. Thank you. The Chair recognizes the 
gentlelady from Texas, Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Thank you very much. Let me thank the 
witnesses for their testimony, and I want to, if I will, probe 
some of the solutions that we might be able to have.
    Mr. Kingston, can you just highlight again--you--obviously, 
Georgia has, similar to many of our Southern States and Western 
States, a rural economy. And you were complaining or at least 
said that there needs to be a fixed H-2A. Would you restate 
that for us again?
    Mr. Kingston. Well, one of the problems is that the H-2A 
requires that workers be paid the adverse effect wage rate. And 
because that's different than the prevailing wage rate, which 
we often talk about in regards to, say, Davis-Bacon, where you 
get one type of industry, pool it together with the same types, 
and come up with an average wage, the adverse effect wage puts 
dissimilar vocations together and it increases the wage.
    And the example I had given is that you could have an 
agriculture veterinarian thrown in with an agriculture 
mechanic, and it skews what the wage rate is. But that's what 
you have to pay a migrant worker who's come onto your farm to 
pick peaches or onions or whatever. And so, because of that, 
it's very expensive for a farmer to legally hire H-2A workers.
    On top of that, he has to provide transportation and 
housing. And we've had farmers who say I want to do the whole 
thing and do the whole thing right, and 2 or 3 years down the 
road, they just get disillusioned because none of their 
competitors are doing it.
    And that gets back to one of the problems is that--and I 
think you mentioned it in your opening statement--that there 
were only three enforcement actions in the country this year. 
That's one of the biggest problems is that there is not the 
enforcement of the existing laws. And so, there again, for a 
farmer who wants to do it right, following H-2A to the letter, 
he's penalized because no one else is.
    Ms. Jackson Lee. Well, you know, that's what I think would 
be the answer to your concern. Of course, we, over the years I 
think in a bipartisan manner, instructed or at least directed 
the various agricultural entities to provide transportation and 
housing because we were trying to create a better quality of 
life for the legal migrant worker that were utilized by 
industries in the Southeast and then on the West Coast, in the 
wineries and other agricultural entities.
    So I think what we would look for is some kind of fix that 
evens it out.
    Mr. Kingston. Absolutely.
    Ms. Jackson Lee. We shouldn't discourage the farmer who 
wants to do it right to applaud or to affirm those who want to 
do it wrong, which is one of the reasons that I think we must 
look closely at the Guest Worker program and how it works, 
because, in addition, the question is that we have any numbers 
of migrant workers who are here, who obviously or may not 
likely take a trip back out of town or out of the country to 
make good on the Guest Worker program and so there may be--when 
we talk about a bipartisan solution, looking at the H-2A to try 
and fix it; make sure it's enforced, so there's not an 
imbalance; but also look at earned access to legalization for 
those who are here, with strict criteria.
    I want to ask some questions to each of you--and I'm going 
to say them first so that I can have an opportunity to hear 
your answers.
    Congresswoman Blackburn, I am interested in the Federal 
funds being used to pay illegal immigrants. Interestingly 
enough, the Congressional Black Caucus and Congressional 
Hispanic Caucus have been interested in that issue, and we're 
coming together around a policy statement, because it impacts a 
lot of our constituents as well, and I think it's a very 
valuable initiative, and I'd like to raise with you the fact 
that fraudulent documents has been a great concern.
    I would like to offer the thought of a fraudulent document 
task force that draws together all of the police entities on 
the Federal level so that we can know what Peter is doing and 
what Paul is doing and find out the trail of fraudulent 
documents.
    Do you think that that would be a constructive approach as 
we begin to look at how we can start fixing problems?
    Ms. Blackburn. I think that looking at the documentation, 
of course, is one of those, and that is what led to the Federal 
Contractors Security Act, which is H.R. 2049, the bill that I 
mentioned.
    For those companies that would choose to contract with the 
Federal Government, they would be required to use the employee 
verification program, which is the 1-800 number dial-in 
program. We know that there has been success with that in the 
test pilot. And they would be required, the employer would be 
required, to enter whatever documentation the number individual 
has. So that would give us one tool that we could use.
    Another--and this would be covered separately in different 
legislation, but I appreciate the point that you're making--the 
actual appearance of the document--and we hear that from the 
employers also, and I'm sure that's what you're referencing 
that they look at these documents in front of them and they do 
not know if they are valid or if they're counterfeit. And there 
seems to be a problem in their ability to discern that. Local 
law enforcement is requesting tools. Our driver's stations--
driver's testing stations are requesting those tools, and are 
requesting additional guidance.
    Ms. Jackson Lee. And would you think, then, that a Federal 
task force on fraudulent documents, securing information from 
around the Nation, would be helpful to be able to track down 
these sources of fraudulent documents?
    Mrs. Blackburn. I'm not so certain that we need to say an 
additional bureaucratic entity is what is needed. I certainly 
think that the resources exist within ICES, with ICE, within 
different entities that are there, and it goes back in my 
opinion to what I said in my statement about prioritizing the 
use of those resources.
    Ms. Jackson Lee. Mr. Chairman, I ask unanimous consent for 
an additional minute.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Let me just say that I think let me just--
Congressman Carter and to Congressman Lewis, and we appreciate 
your time, and I'm going to ask the question, if you could go 
ahead and answer it.
    Judge, you've hit the nail on the head, and I think, 
however, we have to decipher, we had an earlier hearing on 
border violence. I've been to the border as well. We had 
Congressman Cuellar here visiting us. But I think there is very 
important if you might comment to distinguish the acts of 
outright, outcast criminals that are bringing in guns and drugs 
that have accelerated because of the extreme violence at Nuevo 
Laredo and other places from economic undocumented that we need 
to address in the immigration system. We had here the 
Department of Justice at the earlier hearing, but find a way to 
recognize that smugglers are bringing in both--people, drugs, 
and guns. But we must I think take a direct concerted effort to 
the violence, if you may comment on that.
    And, Congressman Lewis, and I might I say that one of the 
issues I think when we talk about Border Patrol agents has to 
be resources. We can't talk about bureaucracy and there's too 
much bureaucracy, when we need to fight this war. So it's a 
question of whether we fund our Border Patrol agents, whether 
we give them the tools of anti-smuggling units, or do we give 
them fraudulent coordination systems is very important.
    But, Congressman Lewis, with your history in the civil 
rights movement--and I will yield to Judge Carter and then 
you--can we find a way, is it not complete to say that how we 
treat our immigrants is how we're perceived around the world 
and how we find a balance, as you have so eloquently said, 
speaks also to the histories that America has gone through in 
the civil rights movement, when there were others who had a 
second class status.
    Congressman Carter, just on this issue of the violence, the 
extreme violence at the border.
    Mr. Carter. Thank you, Ms. Jackson Lee, and I agree with 
you wholeheartedly. You know one of the real tragedies is the 
human smuggling that's coming across that border, and the 
actual people who are loosing their lives and suffering very, 
very terribly. And these are, as I've said in my statement, I 
have great sympathy to these hard working people who want to 
work. I have visited--for years, I practiced my Spanish every 
chance I get to talk to these people, because I learn from 
them.
    And my position on this, from a person who's been involved 
in the law for a long time is I don't want any American citizen 
or future American citizen starting their life as a law breaker 
in the United States. We can come up with a better plan to 
allow people to start their lives in this country legally. And 
I'm not opposed to working out a solution for the immigrant 
status of these people, not at all, but I first feel like we 
have to give the confidence to our citizens that our borders 
are safe, and then work out plan for the rest of them.
    And that's why I'm one of these secure the border first 
people, because it's dangerous.
    But I have a tremendous amount of sympathy for those who 
come across as do I think most all Texans who have lived there 
a long time, we've been interacting with these people our 
entire life time, and they are our neighbors. And don't have 
a--you know, I don't personally have problem with any of these. 
In fact, I've got some pretty good friends in that community. 
You know, they don't vote for me, at least I hope they don't.
    But the facts are it's a situation where human tragedy 
joins with dangerous activity to make lawlessness an element on 
the border.
    So let's shut down the borders first, and then let's work 
out a program to have everybody be first-class citizens when 
they become Americans, not those who started out as criminals.
    Mr. Lewis. Congresswoman, I think it's important for us as 
a Congress and as a Nation to come up with humane and 
compassionate ways to treat immigrants. It is a reflection on 
who we are as a people, who we are as citizens, not just of 
America, but as citizens of the world. The world is much 
smaller in this age of communication and information. You can 
sneeze in Houston, and we can feel it in Atlanta or feel it New 
Delhi or some place. And we go to be very mindful and 
sensitive.
    So we need to come up with a blueprint, a road map, and be 
mindful, because, you know, just look. America today is not 
going to be the same America in 20 years from now or 30 or 40 
or 50 years. America is going to be browner. We have to face 
it. It's not just going to be Whites and Blacks, but it's going 
to be more brown. And we're going to look more like the world 
community, and we have to take the long hard look, not just do 
a quick fix for next week or next month or next year, but for 
generations yet unborn.
    Ms. Jackson Lee. Thank you very much.
    Mr. Hostettler. The Chair now recognizes the gentleman from 
Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, let me at the outset make a quick 
observation, and that is the obvious: that three of our four 
panelists today are not from Border States. This would not have 
been thought of 10 years ago or even 5 years ago, but I think 
it shows how far the problem of illegal immigration has spread, 
or if you don't consider it a problem, then how far the 
phenomenon of immigration has spread.
    And I notice that that's true of other panels as well, that 
a majority no longer are not from Border States.
    Let me address my first comment maybe to Congressman 
Kingston and Congressman Carter, because both of you all 
emphasized the cost of illegal immigration. You gave examples 
of education, of incarceration, of health care and so forth. 
The way I see it with illegal immigration continuing to 
increase, those problems are only going to get worse. And just 
this last week, I ran across a figure that I'll pass on to you, 
which isn't going to be reassuring, but will reinforce the 
point you just made and that is that 20 percent of all births 
in California are now to illegal immigrants, and 10 percent of 
all births in America are now to illegal immigrants. And that's 
just going to compound the problem.
    Congresswoman Blackburn, you and Congressman Kingston 
mentioned the problem of verification of employees who are not 
in the country legally. And you're right. Congressman Kingston 
mentioned the technology is available and indeed it is. What is 
not available or what is not evident frankly is a willingness 
to implement that technology and to make those checks. If we 
did so, we would have good grounds for trying to implement a 
better system, whether it be the H-2A system that Congressman 
Kingston and I worked on those many years ago or other systems. 
But unfortunately, that continues to be a problem just because 
of the unwillingness to enforce those current laws and to enact 
new laws.
    And, Congressman Carter, you mentioned crime specifically, 
and you and I have talked about this before, and let me add 
another statistic to the mix as well, and that is that over 20 
percent of all Federal prisoners today are, in fact, illegal 
immigrants. About half of them have been convicted of--all of 
them have been convicted of felonies, but half of them have 
been convicted of drug dealing. So if you want to reduce crime 
in America, if you want to reduce the cost of incarceration, if 
you want to make our communities safer, then you simply need to 
know who's coming across the border, why, and for what reason 
they might be coming across.
    Unfortunately, not everybody is coming across for the right 
reason. If they're coming across illegally, to me, they 
shouldn't be coming across at all.
    And so far I haven't got too many questions, but, 
Congressman Lewis, let me ask one of you. Are you at all 
troubled--and you mentioned employees as well--are you at all 
troubled by all of the studies, both liberal and conservative, 
that have found that illegal immigrants compete directly with 
American citizens and legal immigrants in this country, 
particularly for blue collar jobs. And every study, liberal or 
conservative, middle of the road, independent, whatever, has 
found that wages have been depressed. As a result, jobs have 
been lost. It's really simply a matter of supply and demand 
when you have many, many people willing to work for minimum 
wage or below, that competition is going to result in an 
adverse impact on, as I say, legal immigrants, as well as a 
citizens. Do those--does that wage depression and job loss 
concern you?
    Mr. Lewis. I think, Congressman Smith, we've got to 
continue to find ways to grow the economy and create more jobs. 
When I visit some parts of Georgia or other parts of the 
country really and see the large number of recent immigrants to 
the--our country or to the City of Atlanta working, they're 
Black. They're Hispanic. They're White. I think that's what 
America is all about. Or people going up into north Georgia 
that Congressman Kingston would know about working in the 
poultry industry.
    I don't think we should be afraid of people coming in doing 
some of the necessary work that needs to be done.
    Mr. Smith. Okay. Maybe we can discuss this further just as 
Members perhaps, but there isn't a job in America that isn't 
performed by citizens willing to work hard. Many jobs in 
America are performed by illegal immigrants, but they are 
probably not as high of a percentage as lot of people think, 
and, unfortunately, in those particular professions, be it 
construction workers or maintenance, the unemployment of 
Americans and legal immigrants is in the double digits because 
of the competition with the illegal workers.
    So that's something we can continue to discuss.
    Mr. Lewis. Mr. Congressman?
    Mr. Smith. Yes.
    Mr. Lewis. Sometimes when you look at certain industries, 
it's not just the hard manual labor, but you should come to 
some cities, say, in Texas or in California. Look at the 
taxicab industry here in Washington. Look at certain other 
industries. Those are the people that the employers are hiring. 
Something is going on there, and it's not just a matter of 
immigrants taking jobs from Americans. Something else is 
happening there. And that's why I think we got to look beyond.
    Mr. Smith. Okay. But to many employers, it's just a matter 
of cheap foreign labor, and they'll pick that over others.
    One other point to make and you're welcome to respond or if 
you want to and that is I love the idealistic theory of--and 
agree with the idea of one nation, one people--and I 
acknowledge as much as anybody else that our country is great 
today because of the contributions of immigrants. We would not 
be the great Nation we are without their contributions.
    However, I hope that you would make a distinction, as I do, 
between legal immigrants who have played by the rules, waited 
their turn, obeyed our laws, sometimes been waiting patiently 
for years to come into our country the right way versus those 
who flaunt our laws, cut to the head of the line, and break 
other laws. Take advantage of our taxpayers, basically steal 
from them with all these costs. To me, there is a distinction 
between legal and illegal immigrants that I would hope that you 
would consider.
    Mr. Lewis. I consider that very much so.
    Mr. Smith. Okay.
    Mr. Kingston. Mr. Smith, I wanted to comment, though, also, 
because remember when we talk about the felons and the more 
violent criminals who have maybe gotten into this country for a 
job as illegal aliens, and then they broke another law, and 
they were arrested for drugs. But remember, the other person 
who broke the law was the employer who hired them.
    And we do need to enforce the law. As Ms. Jackson Lee said, 
and I totally agree with that, but, you know, even when you 
can't enforce the law, that doesn't excuse employers for not 
following the law. And I think that there is maybe in Congress 
a bully pulpit opportunity that we, through the Chambers of 
Commerce and the NFIB, have to say to the hotel-motel owners, 
the lawn service folks and the taxicab companies that Mr. Lewis 
mentioned that, you know, you're breaking the law. And so, you 
know, it's not a matter of blaming it just on that guy who came 
over the Rio Grande. You broke the law also.
    Mr. Smith. That is a good point, which I appreciate being 
made. And thank you, Mr. Chairman.
    Mr. Hostettler. And you will find a hearty amen chorus to 
support both of the gentlemen from Georgia's assertions.
    The Chair now recognizes the gentleman from California, Mr. 
Berman, for questions.
    Mr. Berman. Well, thank you very much, Mr. Chairman, and I 
apologize for being late. I was at another meeting. I did want 
to come to this.
    But I want to just pick up at least--and perhaps your 
reactions following on something you said when I wasn't here, 
but my Judiciary staffer was watching on television and just 
briefly reported.
    This issue of the employers. We know the fundamental flaw 
of the 1980--there were several flaws--but one of the 
fundamental flaws was that the employer sanctions were a joke, 
because, for understandable reasons, the business community did 
not want each employer to become a little INS enforcer, so you 
said there would be some documents and if the employee 
presented those documents, the employer could rely on those--
the authenticity of those documents.
    We then created an industry in the manufacture and 
distribution of false documents.
    But the present situation, in 2005, I'm going to take an 
issue you talked about--agriculture. This has been true for a 
very long time in the West, but now it's true in Georgia and in 
a whole bunch of other places as well--a huge percentage, a 
huge percentage--I think in California, it probably is close to 
90 percent. It may be less in some of the other places, but 
it's very substantial--of the people involved in the planting 
and harvesting of perishable fruits and vegetables and nursery 
workers--areas where it's not highly mechanized--where you--
it's not corn and wheat and grains.
    A huge number of those people are undocumented workers, 
illegal immigrants, whatever you want to call them. Every 
grower knows it. Some of them go through efforts to hire farm 
labor contractors or to contract with farm labor contractors so 
they can act like they don't know it. But they all know what 
they are doing.
    The grower--and I remember talking to a couple from 
Georgia, in fact, who was trying to do it through the Guest 
Worker program, the H-2A program, to compete with the growers, 
the vast majority of whom were quite willing to aside at the 
documents or to use a farm labor contractor to the employer 
were at a tremendous competitive disadvantage for a number of 
reasons.
    Now, you and I are going to have differences on the adverse 
effect wage rate, because to move to a prevailing wage rate in 
an industry where the wages are so depressed by the presence of 
large numbers and a potentially enormous oversupply of 
undocumented workers depresses the wages, so the prevailing 
wages become the minimum wage. And you address--or adverse 
effect wage rate, complicated though it is, has the effect.
    There is a proposal, which I've been very involved in, 
called AG Jobs, to try and come to a restructuring of all this.
    And one of the things it does is make a number of changes 
in the H-2A program. It gets rid of all the procedural 
roadblocks to utilizing guest workers. It puts a freeze on, a 
temporary freeze on, the adverse effect wage rates so that 
wages won't be cut, but that particular problem. And it 
attempts to deal with the reality of the 70, 80, 90 percent of 
the agricultural workers.
    If we don't want a perishable fruit and vegetable industry 
in this country, we can ignore this situation and just try to 
start banishing everybody. But if we do think it's important to 
keep that industry in this country, we have to take a grip with 
reality. We have to deal with who's picking in the crops now 
and what status they're going to be in, and we have to avoid 
the mistakes of the 1986 bill by having a verification system 
for the future so that the employer can very simply determine 
through a phone call, through whatever the mechanism is, that 
the person who is seeking that job is truly here with 
authorization to work.
    And so I mean I think there are ways out of this. Now, you 
can denounce anything you want as an amnesty. A proposal which 
says they came into this country, so they have to come home, go 
back, before they come in again is an amnesty, because it's 
for--it's not holding against them the fact that they came here 
illegally. You can call anything an amnesty and defeat 
everything by doing it.
    But I just think a comprehensive solution that deals with 
border enforcement, that provides a true verification program 
for the hiring of all workers so we don't get into issues of do 
they look foreign or are they domestic, but all workers, that 
that person has the authority to work, and then has a realistic 
solution to the situation we're faced, and it's not just 
agriculture. John Lewis mentioned others. It's in the 
construction industry now. It's all over. This is a--we are in 
a terrible situation now. The guy who is trying to do it the 
right way is at a tremendous disadvantage, and the issue of the 
employer that you mentioned is absolutely right, because the 
guy who wanted to do it right, he can't end up doing it right. 
He gets--he goes the same way as all the rest of them, because 
he can't survive in the industry. He has to quit, because he 
can't survive doing it this way. So that's my pitch in, and if 
you had any reactions, I'd be interested.
    Mr. Hostettler. Without objection, the gentleman will have 
an additional minute for responses from the panel.
    Mrs. Blackburn. Mr. Berman, I agree with much of what you 
have said, and forgive me, my voice is not full strength today.
    And that is what led to both the pieces of legislation that 
I talked about in my testimony. H.R. 2049, which is the Federal 
Contractor Security Act, and it requires a company that is 
going to do business with the Federal Government taking 
taxpayer money and paying employees to verify that the people 
working on those projects are who they claim to be.
    And this is important not only because of the immigration 
issue and how embarrassing it is to our Government when our 
Government conducts a raid on a Government site and finds 
illegal immigrants there, but it's also important because of 
those who would misrepresent who they are in order to get into 
sensitive areas and get to sensitive material.
    The other thing--and this goes back to one of Mr. Lewis' 
parts--all of us have constituents who would like to have the 
opportunity to work on those projects where they are paid a 
good wage. And many times, they lose that opportunity, because 
the job will go to someone who is in the country illegally and 
is working for a lower rate. And then that individual that is 
working for that lower rate, who is here illegally, is not 
going to have other protections provided through the law.
    Mr. Berman. Could I just respond to that one point, Mr. 
Chairman or is that----
    Mr. Hostettler. Without objection.
    Mr. Berman. Oh, thank you very much.
    I used to believe that, and I thought, in fact, at times 
the gentleman from Texas and I were aligned, because I believe 
a lot of this was an effort to get past the workers--I mean 
there was a marketplace. You paid decent wages. You got the 
workers, and it was much easier to bring in and recruit illegal 
workers because you could pay them less, because they 
wouldn't--it was good from their historical perspective.
    But I've come to the conclusion that in agriculture 
specifically, and I think in some other we call it unskilled or 
entry-level, although I mean you talk about--I mean I think I'd 
rather spend 30 days in the County Jail than pick fruits and 
vegetables all day long--that there probably is--there are 
probably shortages of workers; that there aren't a large number 
of U.S. workers who are going to come in and pick those crops 
if we could just get rid of all the illegals, and the real 
consequence is we're going to lose that particular industry in 
this country.
    We will export the highly mechanized products, the corn and 
the wheat and all that stuff, and we will import all our fruits 
and vegetables. And that's what the consequence is.
    Mrs. Blackburn. Yes, somebody said they're going to start 
sending semi-skilled----
    Mr. Berman. Those are higher paid.
    Mrs. Blackburn [continuing]. Labor in these Federal 
contractor projects we do have that situation.
    The other bill I have, 3262, is the Employee Verification 
Accountability Act, and that speaks to some of the things you 
referenced in the '86 immigration bill.
    It would remove the ability of employers to negotiate down 
those fines, because that is what we find that they are 
currently doing. They are continuing to hire, knowingly and 
willingly, hire individuals that have entered the country 
illegally, and then they're going and then negotiating down 
that fine and considering it a cost of doing business.
    And that practice is not fair to anyone, much less it is 
something that's against the law.
    Mr. Hostettler. Judge Carter, you were----
    Mr. Carter. Mr. Chairman, if you could just give me. I'd 
like to respond.
    Mr. Berman, we have the same industry in Texas, and we pick 
fruits and vegetables in the Rio Grande Valley. That's why I 
know exactly what you're talking about, and I think as we put 
our heads together, hopefully across the aisle, to try come up 
with the solution to this problem, let me point out to you the 
fact that we've got a Catch-22 that can happen here, and I 
think we can look at what we did in the--I will call it Reagan 
Amnesty Program. I doubt very seriously in Texas, Florida, or 
California that anybody that got amnesty in 1986 or whenever it 
was under that program is picking fruits and vegetables in our 
State anymore.
    And that's what we have to look at. As we legalize people 
here, their status automatically qualifies them to move to the 
next level of labor and go up the salary chain, and rightfully 
so.
    Mr. Berman. It's the American way.
    Mr. Carter. That's the American--rightfully so.
    Mr. Berman. And that's why you need to have some kind of 
temporary foreign guest worker program----
    Mr. Carter. I think I happen to agree----
    Mr. Berman. at the same time.
    Mr. Carter [continuing]. With you on that, but it has to be 
something where we know, when they're going to get here and 
when they're going to go home.
    But I do--and I don't want to lose that industry. We 
definitely don't want to lose it in Florida or Texas or 
California, because these industries are important to 
Americans. And we actually produce better produce than the rest 
of the world does.
    So we've got to be able to--I agree with you 
wholeheartedly, and I would support a plan to come--where 
people come in legally for a contracted period of time, stay 
that period of time, and go home.
    That's a good plan. That's a good thing for us to start 
looking at. But anything that legalizes the people that are 
here, you don't expect them to pick those fruits and 
vegetables, because they don't have to anymore.
    And then the next wave of illegals will come across that 
border unless we do something about the border.
    Mr. Hostettler. The gentleman from Georgia is right.
    Mr. Kingston. Yeah. I want to say I think, as Mr. Berman 
outlined it, I think you have a very commonsense solution, and 
you're not talking about amnesty, and I certainly agree with 
your definition; send them home, let them get redocumented, and 
let them come back, if that's what I interpreted you saying. 
But I wanted to say this. Really, my point was that the last 
guy standing following the law is out of business.
    And we've heard over and over again, you know, farm folks, 
brick masons, sheet rock--there's painters, roofers. It's all 
the same thing. You know, I didn't want to do that, but all my 
competitors did, and I had to stay in business, and so to have 
a reform and not put it in employer sanctions is ridiculous, 
because we'll just--you can reform all you want, but you have 
to include the employers in the formula.
    Mr. Lewis. If I could just respond for a moment. It's just 
not the private sector, and I think the gentlelady from 
Tennessee made the point. If you travel to almost any major 
city in America and spend some time and talk to people, who are 
the people that are working repairing the streets? Who is 
repairing the roads in certain major cities in America? And so 
we seem just quit it and says the private sector. It's the 
person who's building the building or building--but it's school 
system. It's local government. It's county--probably State and 
probably Federal also, if we really did our homework.
    I think we have to find a way, the people that are here, 
find a way to make them legal. I don't understand this fear 
about not giving people driving licenses. Don't we want our 
streets to be safe and want people to know how to drive? I 
don't understand this thing about not providing health care. 
Don't we want our people to be healthy, everybody?
    So it's important for people, whether they're here legally 
or illegally, to have access to health care, to be able to have 
a legal driver's license. What is the fear?
    And we talk about building walls and fences. I think it was 
Robert Frost who said, when you build a wall, when you build a 
fence, what are you trying to fence in and what are you trying 
to fence out. What is the fear? We need to come up a blueprint, 
a road map, and do it right.
    Mr. Hostettler. I thank the gentleman. The Chair now 
recognizes the gentlelady for 1 minute for a question that she 
had wanted to pose.
    Ms. Jackson Lee. This is such a ripe session that I thank 
you Members very much. It really is helpful to our Committee.
    Mr. Hostettler. We keep using these fresh fruits and 
vegetables analogies.
    Ms. Jackson Lee. First, I'd like to ask the Chairman to ask 
unanimous consent to place in the record from the Houston 
Chronicle, ``8 People Accused of Smuggling Girls for 
Prostitution.''
    Mr. Hostettler. Without objection.
    [The information referred to is available in the Appendix.]
    Ms. Jackson Lee. Let me ask Judge Carter and Congressman 
Lewis in terms of solutions, and let me pose this question 
again on the fraudulent documents.
    We've come with a lot of testimony--and of the abuse of 
fraudulent documents, but also what it does to employers and 
others who are trying to follow the law, and so we would hope 
if you would, from the Judge's perspective, be able to say what 
it would be helpful to have the task force that comes out law 
enforcement--the DEA, the FBI--sharing that information they 
have on fraudulent documents. And let me just finish with him--
Congressman Lewis, Mr.--Congressman Smith asked this question. 
Legislation that would include the protecting of American jobs, 
because you just said, you know, we got--the people are here. 
But if we had language that talks about protecting American 
jobs, outreaching to minority and underserved areas in terms of 
providing training with a fee, for example, that immigrants 
pay. Wouldn't that be the kind of message we want to send to 
Americans that we want to protect your jobs. We want to 
outreach, whether it be minorities or others, but we have to 
find a fix to these problems as well?
    And I'll let Judge answer, and then if you would answer. If 
we put in the immigration bill a way to protect American jobs, 
a way to train young people, a way to outreach, would that be 
also an effective tool? Judge?
    Mr. Carter. You know, Ms. Jackson Lee, in Texas, it's 
against the law to buy liquor with a false ID.
    Ms. Jackson Lee. I do know that.
    Mr. Carter. We're all very aware of that, because that is a 
problem in our high schools and so we made it against the law, 
and we made it a Class B misdemeanor, which can carry up to 6 
months in jail and up to I believe a $5,000 fine. And it 
curtailed that.
    Now, people can use that same false document to get a job, 
to come--report for jury service. I spent--once we went to 
driver's license selection for jury, I spent the first 15 
minutes finding somebody to speak Spanish to talk to the crowd 
to make sure that just because you had a driver's license, it 
didn't mean you could be on the jury. You had to be an American 
citizen to be on the jury, and I'd have 15 or 20 get up and 
leave every jury service, every week.
    If we make it illegal and we put punishments on using these 
things and we put punishments; it's against the law for a 
liquor store operator to accept a false ID.
    Now, why can't we be--and it's against the law for these 
people to hire these folks with these false documents. Make--I 
mean I believe in making people responsible for their own 
actions.
    I think the employers should be responsible for their 
actions. I think these people that are making applications for 
these jobs should be responsible for their own actions, and we 
should enforce the law.
    We have a good system in every State in this Union for 
enforcing the law. Let's do it.
    You know I could never get INS to pick up people in the 
jail that were illegal immigrants, ever. I called them 
personally. Over 20 years of service to the--on the judiciary, 
and I never got them to pick up one, ever, except on Tuesdays. 
That's the day they came to town.
    So, you know, we're not using--a lot of the tools we got in 
place. We got them in place. We can use them if we'll just do 
it, and you've raised a very good point there. We need to 
enforce the laws that are on the books.
    False swearing is against the law in Texas, and I think 
every other State in this Union. And yet you swear that--on 
many of these documents to get them. These are issues we can 
address. But we don't. And that I argue that leads to this 
element of lawlessness. It encourages people to go ahead and 
break the law and nobody is going to punish you. Nobody is 
going to say anything to you.
    I'm just an old law and order guy, you know, and I believe 
if we enforce a lot of our laws, it would work.
    Ms. Jackson Lee. Mr. Lewis?
    Mr. Lewis. It's important, Congresswoman, for us to find 
the necessary resources and appropriate the necessary resources 
to train people, especially young people.
    There's so many young people growing up in America today 
without any sense of direction, any sense of purpose in many of 
our cities and rural communities, and we need to make available 
the resources, the tools. You know everybody is not going to go 
to Harvard or to Yale or to Morehouse or Spellman Atlanta, or 
the University of Georgia, or wherever. They need the skills. 
They need the tools. And we have to be prepared and willing as 
a Congress and a Nation to spending the necessary resources to 
prepare people for the workforce.
    Mr. Hostettler. I thank the gentlelady.
    Ms. Jackson Lee. Thank you, Mr. Chairman, for your 
indulgence, and that speaks to the Save America Comprehensive 
Immigration Reform bill, and I look forward to our hearings, 
and this is my--this is the document. Thank you. Thank you very 
much for your presentation.
    Mr. Hostettler. I thank the witnesses today for your 
invaluable testimony and contribution to the record on this 
very important issue. All Members will have 7 legislative days 
to make additions to the record. The business before the 
Subcommittee being complete, without objection, we are 
adjourned.
    [Whereupon, at 4:03 p.m., the Subcommittee adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

    Houston Chronicle article entitled ``8 People Accused of Smuggling 
Girls for Prostitution,'' submitted by the Honorable Sheila Jackson Lee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
